PROOF OF SERVICE
I, Ramesha L. Glover, pursuant to Rule 29.5(c) of the Supreme Court of the United
States, served one copy of the Petition for Writ of Habeas Corpus and one copy of
the Appendix to the Petition for Writ of Habeas Corpus, to Miami'Dade Corrections
& Rehabilitation Department (Daniel Junior), via Federal Express on August 19,
2021.
Director Daniel Junior
Miami'Dade Corrections and Rehabilitation
Dr. Martin Luther King Office Plaza
2525 N.W. 62nd St.
Miami, FL 33147
_
r\n
Tracking Number'S ^^ l
>
All parties that are required to be served have been served pursuant to Rule 29.5 of
the Supreme Court of the United States.
Pursuant to 28 U. S. C. ยง1746,1, Ramesha L. Glover, declare under penalty of
perjury that the foregoing is true and correct.
Executed on August 18, 2021

Ramesha L. Glover

Additional material
from this filing is
available in the
Clerk's Office.

